CERTIFICATE OF COMPLIANCE
No. 20-440
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC., et al.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Intellectual Property Law Professors in Support of Petitioner contains 5993
words, excluding the parts of the brief that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021

PHILLIP R. MALONE

